                                   UNITED STATES DEPARTMENT OF EDUCAnON 

                                               OFFICE OF INSPECTOR GENERAL 

                                                    KANSAS CITY OFFICE 


                                              8930 Ward Parkway, Suite 2401
                                             Kansas City, Missouri 64114-3302

 AUDIT SERVICES                                                                                                  INVESTIGATION SERVICES
                                                  Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                  FAX (816) 268-0526

                                                       JUL 11 Z003

       Dr. Edward Hundert
       President
       Case Western Reserve University
       Adelbert Hall 216
       10900 Euclid Avenue
       Cleveland, Ohio 44106-7001

       Dear Dr. Hundert:

       This is our Final Audit Report presenting the results of our audit of the Talent Search
       program at Case Western Reserve University (CWRU). The objective of our audit was to
       determine if Case Western Reserve University administered the Talent Search program in
       accordance with the law (Higher Education Act of 1965, 402B) and specific Talent
       Search regulations governing the documentation of participant eligibility. CWRU
       officials did not concur with our finding or recommendations in their June 5, 2003,
       response to our draft report. We have summarized the comments after the finding and
       recommendations and the full response is provided as an attachment to this letter.

                                                      AUDIT RESULTS

       We found that Case Western Reserve University did not always administer its Federal
       Talent Search grant in accordance with applicable law and regulations. For the grant
       period September 1, 2001, through August 31,2002, we estimate that CWRU served only
       399 of the 600 participants, the minimum number of participants required of Talent
       Search grantees, it was funded to serve. By not meeting the required minimum number
       of participants, the CWRU Talent Search project was ineligible and all $212,428 of grant
       expenditures for the budget period were unallowable.

       Requirements for Talent Search Grantees and Regulatory Definitions

       For the 2001-2002 budget period, CWRU and the U.S. Department of Education (the
       Department) agreed that the grant was to serve 600 participants (the target popUlation).
       This was the same as the minimum 600 participants required to be served per the Talent



             Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation.
Final Audit Report 	                                                                 ED-OIG/A07-D0002

Search regulations in 34 C.F.R. § 643.32 (b).

Participants must meet two conditions according to 34 C.F.R. § 643.7

           (b) Other definitions . . . Participant means an individual who—
           (1)	   Is determined to be eligible to participate in the project . . .; and
           (2) 	 Receives project services designed for his or her age or grade
                  level.

Department officials provided us with examples of adequate documentation for services
provided, such as sign in sheets. The regulation at 34 C.F.R. § 643.32 (c) (3) requires
grantees to maintain documentation to support the services rendered.

Some Talent Search Participants Claimed Did Not Meet Both Conditions to be
Considered a Participant

We selected a random sample of 100 names from a list provided by CWRU of 605 Talent
Search participants claimed for the 2001-2002 budget period.1 We reviewed Talent
Search records for all 100 files selected. Two sampled participants did not meet the
eligibility requirement because documentation for one student’s citizenship was not
provided and one student’s eligibility file was missing. Of the remaining 98 sampled
participants who met the eligibility requirement, 32 did not receive any eligible service
during the budget period. Therefore, only 66 of the 100 sampled participants met both
parts of the participant definition by meeting the basic eligibility requirement and
receiving an eligible service during the budget period. The Talent Search assistant
director confirmed that 34 participants did not meet one or both parts of the definition as
reported.

Based on our statistical sample, we estimate that CWRU only served 399 eligible
participants during the 2001-2002 budget period.2

The inclusion of inactive participants in the population, the newness of the program, and
lack of guidance to staff may account for the CWRU’s difficulties in meeting its Talent
Search target number. The Talent Search program at CWRU began in 1998; however,
written policies and procedures for staff to refer to in administering the Talent Search

1
  CWRU reported in its Annual Performance Report to the Department that 605 participants were served by
the Talent Search program during the 2001-2002 budget period.
2
    We are 90% confident that the participants receiving eligible services total 399+/- 11.35 percent.



                                                        2                                                 

Final Audit Report                                                  ED-OIG/A07-D0002

program have not been established. In testing our sample, we found instances where a
participant’s eligibility was determined in a prior period; however, service was not
provided in the 2001-2002 budget period. Talent Search officials told us that they were
not aware that service must be provided to participants in each budget period in which the
participant is counted.

The 399 participants are significantly below the 600 participant target population for
which CWRU was funded. Therefore, CWRU was not in compliance with regulatory
requirements for the period September 1, 2001, through August 31, 2002, and all
$212,428 grant funds expended for the budget period were unallowable.

Recommendations:

We recommend that the Chief Financial Officer (in collaboration with the Assistant
Secretary for Postsecondary Education) require

1. Case Western Reserve University to:

   1.1 Refund the entire $212,428 expended for its Talent Search program during the
       2001-2002 budget period.

   1.2 Establish written policies and procedures specific to the Talent Search program to
       ensure that only eligible participants receiving project services in the budget
       period are counted as Talent Search participants.

   1.3 Deliver project services to the target number of participants in each budget period
       of the project.

2. The Department’s Director of Federal TRIO Programs to:


   2.1 Monitor Case Western Reserve University’s current and future Talent Search
       projects to determine whether the University will be able to meet required
       minimum participant numbers or should have its grant withdrawn.

   2.2 Review Case Western Reserve University’s three prior budget periods (1998,
       1999, and 2000) to verify that the participant numbers were met in each budget
       period and take appropriate action.




                                            3                                                

Final Audit Report                                                   ED-OIG/A07-D0002



Auditee Response and OIG Comments

CWRU disagreed with our recommendation of a refund primarily because they believed
we disallowed the majority of individuals because they did not receive multiple project
services during an award period. We disagree because we did not disallow any
individual who received at least a single service during the award year. As stated above,
32 of the 98 sampled students who were eligible for service did not receive any project
service.

CWRU also reported that it has “instituted increased management controls over and in
the project.” The response detailed CWRU’s revised participant selection process and
documentation of services process and estimates that the Talent Search Program Manual
will be completed September 1, 2003. We believe the revised procedures and manual
will increase CWRU’s ability to serve its target number of participants in the future.

                                OTHER MATTERS

Application Approval Was Not Always Clearly Documented

Acceptance of participants into the Talent Search program was not always clearly
documented. The application form currently used by CWRU contains an “Office Use
Only” block to be completed by staff including the decision for whether or not to admit a
participant into the program. This block also provides for the staff member, approving
the application, to sign and date the application. We found that 30 of the 99 applications
reviewed did not contain a signature or date of a Talent Search staff member. The
regulation at 34 C.F.R. § 643.32 (a)(1) requires a grantee to “determine the eligibility of
each participant in the project at the time that the individual is selected to participate.”
We were able to satisfy our objective through other sources, such as a copy of a letter of
acceptance addressed to the applicant. CWRU Talent Search officials told us that no one
was responsible for reviewing applications for eligibility, and that any Talent Search staff
member may approve participant applications. Establishing a procedure of supervisory
review of Talent Search applications might help to ensure that all applications are clearly
documented and confirm acceptance for each participant in the project.


                                    BACKGROUND

Title IV of the Higher Education Act of 1965, as amended (20 U.S.C. 1070a-11 and 12),
authorizes the Talent Search program, one of the Department’s TRIO programs. The



                                             4                                                 

Final Audit Report                                                      ED-OIG/A07-D0002

Talent Search program is governed by the regulations codified in Title 34 C.F.R. 643.
All regulatory citations in the report are to the codification in effect as of July 1, 2001.

The Talent Search program provides grants to projects designed to (1) identify qualified
youths with potential for education at the postsecondary level and encourages them to
complete secondary school and undertake a program of postsecondary education; (2)
publicize the availability of student financial assistance for persons who seek to pursue
postsecondary education; and (3) encourage persons who have not completed education
programs at the secondary level, but who have the ability to do so to reenter these
programs. (34 C.F.R. § 643.1)

CWRU is located in Cleveland, Ohio. It is a private, nonprofit university. Although its
origins date to 1826, the University in its present form is the result of the 1967 federation
of Case Institute of Technology and Western Reserve University. The two institutions
had shared adjacent campuses since the late nineteenth century.

CWRU was awarded a five-year Talent Search grant covering the performance period
September 1, 1998, through August 31, 2003 (P044A980247). This was its first Talent
Search grant. For the 2001-2002 budget period, CWRU was awarded $212,428 to
provide services to 600 participants and a $10,000 supplemental technology grant
awarded to all Talent Search projects. The Access/TRIO Programs Office was
established at CWRU in November 1998, administratively placing the Talent Search and
the Upward Bound programs under one umbrella. The CWRU Talent Search project
serves 6th through 12th grades in the East Cleveland Public School System. During the
academic year, program services are conducted in the East Cleveland City Schools.
During the summer months, services are provided in the East Cleveland Schools and at
CWRU.

               AUDIT OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine if CWRU administered the Talent Search
program in accordance with the law and specific Talent Search regulations governing the
documentation of participant eligibility. Specifically, we sought to determine whether
participants met the twofold requirements of (1) eligibility and (2) receipt of eligible
services during the budget period.

To accomplish our objective, we

   •   reviewed applicable Federal law and regulations,



                                               5                                                

Final Audit Report 	                                                  ED-OIG/A07-D0002


   • 	 reviewed files relating to the Talent Search project at CWRU and at the 

       Department’s TRIO program office located in Washington, D.C., 

   • 	 interviewed CWRU and Department of Education personnel,
   • 	 determined whether the TRIO cluster had been audited by the University’s
       Certified Public Accountants,
   • obtained and analyzed documents related to the Talent Search project at CWRU,
       e.g. organization chart, Annual Performance Report, and
   • 	 randomly selected 100 Talent Search participant files from a universe of 605 to
       test participant eligibility and documentation of eligible service. All student
       records selected in the sample were reviewed.

We relied upon the population list provided to us by CWRU officials for drawing our
sample. We tested the population list for accuracy and completeness by comparing
source records to the population list and the population list to source records. Based on
this test, we concluded the population data was sufficiently reliable to be used for a
sample population in meeting the audit’s objective. An extract of payment and award
data from the Department’s Grants and Payments System (GAPS) was used to
corroborate information obtained from the University’s accounting system. We found
that the University’s accounting data was sufficiently reliable for our audit purposes.

The audit covered the 2001-2002 grant budget period (September 1, 2001, through
August 31, 2002). We visited the Department’s TRIO program offices located in
Washington D.C. from July 31, 2002, to August 2, 2002. Fieldwork was conducted at
CWRU from December 9, 2002, to December 13, 2002. We held an exit conference with
officials of CWRU on December 13, 2002. Our audit was conducted in accordance with
generally accepted government auditing standards appropriate to the scope of review
described above.

                  STATEMENT ON MANAGEMENT CONTROLS

As part of our review we assessed the system of management controls, policies,
procedures, and practices applicable to Case Western Reserve University’s administration
of its Talent Search program. Our assessment was performed to determine the level of
control risk for determining the nature, extent, and timing of our substantive tests to
accomplish the audit objective.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:



                                              6                                                

Final Audit Report                                                     ED-OIG/A07-D0002


   •   Services provided to participants
   •   Participant eligibility
   •   Program record maintenance

Because of inherent limitations, a study and evaluation made for the limited purpose
described above would not necessarily disclose all material weaknesses in the
management controls. However, our assessment disclosed management control
weaknesses, which adversely affected Case Western Reserve University’s ability to
administer the Talent Search program. These weaknesses included noncompliance with
Federal regulations related to participant services resulting in participant ineligibility and
deficient record maintenance procedures. These weaknesses and their effects are fully
discussed in the AUDIT RESULTS section of this report.

                          ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determination of corrective action to be taken will be made by the appropriate
Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on
the audit:

                   Jack Martin 

                   Chief Financial Officer 

                   U.S. Department of Education
                   Office of the Chief Financial Officer
                   400 Maryland Avenue, SW
                   Washington, DC 20202

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations
contained therein. Therefore, receipt of your comments within 30 days would be greatly
appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued to the
Department’s grantees and contractors are made available, if requested, to members of



                                              7                                                  

----------   -------------




              Final Audit Report 	                                                 ED-OIG/A07-D0002


              the press and general public to the extent infonnation contained therein is not subject to
              exemptions in the Act.

              Sincerely,



               1~~~
        ~	 William Allen
              Regional Inspector General for Audit

              Attachment



              cc: 	          Jack Martin, Chief Financial Officer
                             Sally Stroup, Assistant Secretary, Office of Postsecondary Education
                             (OPE)

              electroniccc: 	 Charles Miller, Audit Liaison Officer & Post Audit Group, OCFO
                              Dottie Kingsley, Audit Liaison Officer, OPE
                              Harold Jenkins, Office of the General Counsel
                              William D. Hansen, Deputy Secretary
                              Phil Maestri, Office of the Deputy Secretary
                              John Danielson, Chief of Staff
                              Eugene Hickok, Under Secretary
                              John Gibbons, Director, Communications
                              Clay Boothby, Acting Assistant Secretary, Legislation and Congressional
                              Affairs
                              Laurie M. Rich, Assistant Secretary, Intergovernmental and Interagency
                              Affairs
                              Carolyn Adams, OGC (Correspondence Control)
                              Richard Jameson, OPE (Correspondence Control)
                              L'Wanda Rosemond, General Operations Team
                              Headquarters and Regional Audit Managers




                                                           8

                                       CASEWESTERN RESERVE UNIVERSITY 

                                                                                      mIE    @ !EO'Wi!Eiliil
                                                                    June 5, 2003      LlIlI-· •• ~. 

                                                                                            PUOIT SERVICES
 Mr. William Allen                                                                          r.hNS.4S CJTY. lila
 Regional Inspector General for Audit
 U. S. Department of Education
 Office of Inspector General
 8930 Ward Parkway, Suite 2401
 Kansas City, MO 64114-3302

            RE:         Draft Audit Report (Control Number ED-OIG/A07D0002) 

                       .Talent Search Program, Case Western Reserve University 


 Dear Mr. Allen:

         We are most appreciative of the audit recently conducted by the Office of the Inspector
 General of the Case Western Reserve University Talent Search Program. Our Talent Search
 Program has already benefited from your audit by allowing us to more effectively provide
 services to our participants. We are also pleased to have this opportunity to review and respond
 to the Draft Audit Report dated May 8, 2003 referenced above.

        The Talent Search Program at Case Western Reserve University is a new TRIO Program
 on our campus, having been first funded September 1, 1998. It has been the concerted effort of
 the University to provide quality services to the target population and to administer the Program
 in accordance with applicable federal regulations and guidelines. In this respect, it is worth
 noting that all federal funds provided to the CWRU Talent Search Program were spent on
 allowable Talent Search activities.

         The CWRU Talent Search Program continues to be ambitious in its efforts to administer
 its federal Talent Search grant in accordance with both federal regulations and the University's
 own policies and procedures. Thus, we will attempt to confine our responses herein to
 applicable federal regulations and comments by the Secretary of the Department of Education
 contained within the Code of Federal Regulations that pertain to the Talent Search Program.

         As indicated in the Draft Audit Report, the Office of the Inspector General sampled 100
 of the 605 participants in CWRU's Talent Search Program and detennined that some of the
 participants did not meet both of the conditions to be considered a participant pursuant to 34
 C.F.R. 643.7(b). Specifically, the Office of the Inspector General found that 32 participants did
 not receive eligible service during the 2001-2002 budget period. In addition, the Office of the
 Inspector General determined that two (2) participants did.not meet the eligibility requirement
 due to inadequate documentation. Lastly, the Office of the Inspector General recommended that
 CWRU establish written policies and procedures to help the Talent Search staff in administering
 the Program. Each of these issues is addressed separately below.

University Office of Student Affairs

MAILING ADDRESS                        VISITORS AND DELIVERIES   Phone 216-368-2020
Case Western Reserve University        110 Adelbert Hall         Fax   216-368-6957
10900 Euclid Avenue
Cleveland, Ohio 44106-7060
Mr. William Allen
June 5, 2003
Page 2

I.     Eligible Participants and Services

        The Office of the Inspector General's detennination that 32 participants did not receive
eligible service during the 2001-2002 budget period is based primarily on the grounds that these
students received only one service during the budget period and therefore do not fall within the
definition of "participant" set forth in 34 C.F.R. 643.7(b)(2). Thus, the Office of the Inspector
General detennined that these students cannot be counted as project participants and estimated
that CWRU served only 399 of the required 600 eligible participants during the budget period.
CWRU takes issue with this interpretation of the definition of,'participant" for several reasons.

        First, the Department of Education itself has interpreted the tenn ''participant'' in 34
C.F.R. 643.7(b)(2) to mean a student who would benefit from one or more of the services
available from a Talent Search Project. See Appendix - Analysis of Comments and Responses,
What Definitions Apply? [643.7J (''the proposed definition of ''participant,'' which required that a
participant be able to benefit from one or more of the services available from the project.")
(emphasis added).

        Second, 34 C.F.R. 643.7(b)(2) does not specify the minimum number of services which
must be provided to a participant. Rather, it simply provides that "Participant means an
individual who receives project services designed for his or her age or grade level." In this
context, the tenn "services" in 34 C.F.R. 643. 7(b)(2) is merely referring to the types of services
set forth in 34 C.F.R. 643.4 since not all services that are offered by Talent Search Programs are
appropriate for every age or grade level. If the federal government envisioned that more than
one service had to be provided to a student in order for that student to be considered a participant
in a Talent Search Program, this would have been clearly delineated in the regulations and
comments (e.g., ''two or more services must be provided for a student to be considered a
participant"). However, this was not done in this case.

       The Office of the Inspector General recognized this fact when it audited the Department
of Controls Over TRIO Grantee Monitoring during the period from January 1, 1998 through
September 30,2000. Specifically, the Office of the Inspector General advised the Department of
Education that the definition of "participant" for Talent Search Programs is unclear and that
more guidance should be given to grantees. See Final Audit Report, ED-OIGIA 0 7-90034,
January 2002, at 21. The Office ofthe Inspector General noted:

               To achieve accurate participant counts, grantees must be given
               clear definitions of the criteria for detennining who can be counted
               as a participant. TRIO program regulations provide definitions
               that are SUfficiently clear for this purpose, with one exception:
               grantees are not told how to determine the extent ofservice that
               must be provided to an individual for him or her to be counted as
               a project participant. An example ofthis is that, according to the
               TRIO program office, an individual is only to be counted as a
               participant in a Talent Search or Student Support Services
               project if he or she has received project service on two or more
               occasions, but we have found that this requirement was not
Mr. William Allen
June 5, 2003
Page 3

                 stilted in written guidance provided to grantees. The instructions
                 that are used by TRIO grantees to complete required reports would
                 be an appropriate place to provide this clarification.

[d. (Emphasis added). Thus, the Office of the Inspector General itself has determined that on its
face, 34 C.F.R. 643.7(b)(2) does not require that individuals must receive project services on two
or more occasions in order to be counted as a participant.

        Third, the Department of. Education's interpretation of 34 C.F.R. 643.7(b)(2) is
inconsistent with the other regulations set forth in 34 C.F.R. 643.1 et seq. Specifically, a student
is eligible to participate in the Talent Search Program if he or she ''needs one or ",ore of the
services provided by the project." See 34 C.F.R. 643.3(a)(3) (emphasis added). Thus, under the
Department of Education's interpretation of 34 C.F.R. 643.7(b)(2), a student is eligible to be a
participant in a Talent Search Program if he or she needs only one service, but can only be
counted as a participant if he or she receives more than one service. This interpretation is
unreasonable and inconsistent and would result in eligible students being denied a needed service
or given extra services that are not needed for the sole purpose of being counted as a participant.
These are clearly not the intended results of the Talent Search Program. There are numerous
occasions where a student needs only one service, such as a senior referred to the Talent Search
Program for assistance with the completion of the Free Application for Federal Student Aid
(FAFSA). The CWRU Talent Search Program provides that service to the student and we
believe that the student can be counted because he or she meets the eligibility criteria for the
Project and that of a participant.

II.    Inadequate Documentation

       In order to ensure that student application approval is always clearly documented and that
only eligible participants are counted as participants in CWRU's Talent Search Program, we
have revised both our participant selection process and documentation of services process.
These revisions are set forth below.

       A.        Participant Selection Pro~s

       The revised participant selection process consists of an application packet that must be
completed prior to student selection. The application packet includes an Application, Parental
Release, Verification of EligibilitylNeeds AssessmentIWork Plan, and Early InterventionlMiddle
SchoollHigh School Initial Needs Assessment. Each ofthese fonns is described below.

Application: 	                 The application is distributed to all students who are interested in
                               participating in the CWRU Talent Search Program. Prospective
                               students are given from 24 to 48 hours to return the application.
Mr. William Allen
June 5, 2003
Page 4

Parental Release:             The Parental Release is used to obtain a copy of the student's
                              academic transcript and is returned with the application.

Verification Form: 	          Upon receipt of the application and transcript, the Verification of
                              Eligibility/Needs AssessmentIWork Plan f01m is completed by the
                              recruiting staff member. Upon completion, this form is submitted
                              to the Director for approval. The date the Director signs the form
                              is the official date of enrollment of the student in the CWRU
                              Talent Search Project. The eligibility category recommended by
                              the staff and accepted by the Director is that which supportive
                              documentation is available and the category which the student is
                              accepted.

Initial Needs Assessment: 	   The Early InterventionlMiddle SchoollHigh School Initial Needs
                              Assessment form is completed by the student immediately after
                              acceptance to the Project and it is the first step in providing quality
                              services.

        CWRU is confident that its revised selection process, including the new application
packet and supervisory review procedure, will insure that approval of participant applications is
clearly documented and that only eligible participants are accepted into the CWRU Talent
Search Program.

       B.      Documentation of Services Process

        We have also revised our documentation of services process and developed Group and
Individual Contact Logs to better document the services provided to our Talent Search
participants. When possible, the participant will sign the contact log. However, it is not possible
for the participants to sign a sign-in sheet in all cases. For instance, the CWRU Talent Search
staff often provides the services set forth in 34 C.F.R. 643.4 in group settings such as classrooms,
college fairs, and career days. In these situations, the CWRU Talent Search staff members have
class rosters and check off each participant's name accordingly.

        Although we are in agreement with the Office of the Inspector General that a sign-in
sheet is the most appropriate method of documenting the provision of services, the Department
of Education has never informed the CWRU Talent Search Project Director that sign-in sheets
are needed or required to document that services were provided. In fact, the opposite is true. As
you know, the Department of Education has embarked on the use of high technology in all TRIO
programs for service delivery, accountability, student use, and paper reduction.

       In the case of the CWRU Talent Search Program, we currently utilize the Blumen
database. In .using this database, we encourage our staff to immediately enter the services
provided to participants into a laptop computer provided by the project instead of writing the
services on paper. This process is consistent with the federal government's paper reduction
program and ensures that all services provided are entered properly into each participant's
database record.
Mr. William Allen
June 5,2003
Page 5

       In addition to the steps outlined above to improve the documentation of services that are
provided to participants of its Talent Search Program, the CWRU Project Director will also
receive a monthly report on students served to ensure that students are eligibilized and that they
have received the services they need. If there are any omissions in eligibility detennination or
the provision of eligible services, this will be rectified immediately.

       Thus, CWRU is confident that its revised documentation process, including its Group and
Individual Contact Logs and monthly service reports, will insure that project services are
delivered to the target number ofparticipants in each budget period ofthe project.

Ill.   CWRU Talent Search Program Manual

        Lastly, in response to the recommendation of the Office of the Inspector General that
CWRU establish written policies and procedures for staff to refer to in administering the CWRU
Talent Search Program, the University has begun the development of a Talent Search Program
Manual which will serve as the guidelines for staff to follow in the identification, recruitment,
and selection of students, the provision of the appropriate service(s) and documentation of
services provided. We estimate that this policy and procedures manual will be completed no
later than September 1,2003.

       In conclusion, CWRU believes that because we have thoroughly reviewed the audit,
provided you evidence where we disagreed, and have instituted increased management controls
over and in the project, that no refund is due to the USDOE for the 2001-2002 budget period.

       Your favorable review of this document, in advance, is greatly appreciated.

                                                    Sincerely, /

                                                    G ~L--..J~ .ref
                                                    Glenn Nicholls
                                                    Vice President for Student Affairs
                                                    Case Western Reserve University

cc:    Dr. Edward Hundert, President
       G. Dean Patterson, Jr., Assistant Vice President for Student Affairs
       Hossein Sadid, Vice President for Finance and Administration and Controller
       Paul Frey, Associate Controller, Office of the Controller
       Christopher Masotti, Director Internal Audit
       Dennis Rupert, Director of Finance and Administration for the Div. of Student Affairs
       Carrie A. R. Reeves, Director, Office ofAccessffRIO Programs
       Monica Coker, Assistant Director, Talent Search Program
